No. ______
In the

Supreme Court of the United States
__________________
ANDRE JENKINS,
Petitioner,
v.
CITY OF CLEVELAND,
Respondent.
__________________
On Petition for Writ of Certiorari to the
Court of Appeals of Ohio
Eighth Appellate District, County of Cuyahoga

__________________
PETITION FOR WRIT OF CERTIORARI
__________________
JAMES R. WILLIS
Counsel of Record
CLARISSA A. SMITH
Rockefeller Building
614 W. Superior Ave., Suite 1144
Cleveland, Ohio 44113
(216) 523-1100
(216) 861-4161 (Fax)
jrwillis-barrister@sbcglobal.net
Counsel for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
I. The questions presented here centralize issues
related to whether the warrantless seizure here of
money for forfeiture (by local police) can be justified.
While it was seized in the wake of a very minor traffic
offense, here involving a car that arguably was parked
illegally which may without any documentation, simply
turned over to the Government for forfeiture - - thus
avoiding the State’s own forfeiture procedures. Before
that happened the officers learned the vehicle was
owned by a convicted drug offender, and the driver
(once identified) turned out to be a recently released
notorious drug dealer. (See U. S. v. Jenkins, 285 F.
Supp. 2d 999 [N.D. Ohio 2003]).
Our thesis is that once this money was seized in the
name of the State it in rem jurisdiction vested and it was
this impervious to being lawfully supplanted. Indeed,
this was because of the Concurrent Jurisdiction
Doctrine. Here we rely on this Court’s Opinions in Penn
Gen. Cas. Co. v. Commonwealth of Pennsylvania ex
rel. Schnader, 294 U.S. 189 (1935) and Hagan v.
Lucas, 35 U.S. 400, 9 L. Ed. 470 (1836). Postured then
by the belief this is so, the prime reason, indeed one of
the dispositive questions here asks:
Isn’t it a fact that the Cleveland Court should
have invalidated any Federal Court forfeiture
declaration it may have relied on.
This we believe was so because the facts show there is
no way any federal Court could have properly acquired
jurisdiction. This follows because the State Court never

ii
relinquished its jurisdiction, which vested: when
seizures are made the name of the State.
II. Another question asks how can it be so, given the
right to challenge the lawfulness of any seizure is
absolute, that a District Court can could abort the
effort by a claimant, in a forfeiture, to show he was
victimized until he first proves he was in lawful
possession. Stated another way, does an owner have to
prove lawful possession before he can challenge the
seizure of his properly?

iii
STATEMENT OF RELATED PROCEEDINGS
There are no related cases or proceedings that
Counsel is aware of. This case involved an isolated
incident.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
STATEMENT OF RELATED PROCEEDINGS . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vii
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE GROUNDS ON WHICH
THE JURISDICTION OF THIS COURT IS
INVOKED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 5
STATEMENT OF THE FACTS. . . . . . . . . . . . . . . . . 9
ARGUMENTS RELIED ON FOR ALLOWANCE
OF WRIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
ARGUMENT NO. I
DUE PROCESS IS INVARIABLY DENIED
WHEN, WITHOUT A FACTUAL BASIS (AND
SOLELY ON THE BASIS OF NAKED,
UNCLAD, UNPROVEN, UNPROVABLE AND
UNFOUNDED CONCLUSIONS), THE COURT
CONCLUDES IT LACKED JURISDICTION TO
DETERMINE WHETHER MONEY SEIZED
INCIDENT TO AN ARREST BY LOCAL
POLICE WAS FORFEITABLE - - INDEED,
WITHOUT REGARD TO WHETHER IT WAS
LAWFULLY SEIZED. . . . . . . . . . . . . . . . . . . . . 13

v
ARGUMENT NO. II
ABSENT A SPECIFIC FACTUAL FINDING
THAT THE FEDERAL COURT HAD INDEED
ACTUALLY, LAWFULLY, ACQUIRED
JURISDICTION, AND GIVEN THAT “THE
COURT THAT EXERCISES FIRST
JURISDICTION” OVER SEIZED PROPERTY
DOES SO EXCLUSIVELY, IT FOLLOWS THE
COURT HERE ERRED WHEN IT DECLARED
IT LACKED JURISDICTION OVER
PROPERTY THAT WAS SEIZED IN THE
NAME OF THE STATE. . . . . . . . . . . . . . . . . . . 17
ARGUMENT NO. III
GIVEN THE FIRST COURT (STATE OR
FEDERAL) TO ASSERT IN REM
JURISDICTION, AND GIVEN THE SEIZURE
WHEN IT WAS MADE BY THE STATE LAW
ENFORCEMENT OFFICER (COULD ONLY
HAVE BEEN MADE, LAWFULLY THAT IT)
FOR PURPOSE OF AN IN REM FORFEITURE,
AND GIVEN O.R.C., §2981.03(A)(4) CAN ONLY
BE SAID TO HAVE AUTHORIZED CIVIL
FORFEITURE (- - I.E., THE IN REM
FORFEITURES ACTIONS TALKED ABOUT IN
O.R.C., §2981.05), IT FOLLOWS THAT THE
GOVERNMENT’S COMPLAINT, FILED
AFTER THESE MONIES WERE SEIZED IN
THE NAME OF THE STATE (FOR
FORFEITURE) AND AFTER THE
APPELLANT’S ACTION, CLEARLY COULD
NOT TRUMP THE EARLIER ACTION AS THE
COURTS BELOW RULED IT COULD, THIS

vi
DESPITE THE FACT OF THE LAW IN THESE
CASES MADE AND PROVIDED. . . . . . . . . . . . 20
ARGUMENT IV
GIVEN THE FUNDS IN A FORFEITURE CASE
WERE INDISPUTABLY SEIZED BY LOCAL
POLICE, AND GIVEN THE ONLY POWER
THE OFFICERS HAD TO DO SO WAS THE
STATE’S FORFEITURE STATUTES (- - HERE,
O.R.C., §2981.14) WHICH VESTS
JURISDICTION IN THE STATE’S COURT,
CAN THE LOCAL POLICE WILLY NILLY,
AND ON THEIR OWN AUTHORITY,
TRANSFER AND VEST JURISDICTION IN
THE FEDERAL COURT DESPITE THE
“CONCURRENT JURISDICTION DOCTRINE.”
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
APPENDIX
Appendix A Entry in the Supreme Court of Ohio
(July 23, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Journal Entry and Opinion in the
Court of Appeals of Ohio, Eighth
Appellate District County of Cuyahoga
(February 7, 2019) . . . . . . . . . . . . App. 2
Appendix C Journal Entry in the Court of Common
Pleas Cuyahoga County, Ohio
(April 13, 2018) . . . . . . . . . . . . . . App. 21

vii
TABLE OF AUTHORITIES
Black v. City of Cleveland,
58 Ohio App. 29 (8th Dist. 1978) . . . . . . . . . 10, 18
City of Canton v. Harris,
489 U.S. 378 (1989). . . . . . . . . . . . . . . . . . . . . . . 18
Demetrius Harris v. City of Mayfield Heights,
No. 95601, 2011WL1584579 (8th Dist. OH
April 21, 2011). . . . . . . . . . . . . . . . . . . . . . . . . . . 26
Donovan v. Dallas,
377 U.S. 408 (1964). . . . . . . . . . . . . . . . . . . . . . . 21
Hagan v. Lucas,
35 U.S. 400 (10 Pet. 400) (1836) . . . . . . . . . . 14, 17
Jenkins v. City of Cleveland,
2017 Ohio 1054, 2017 WL 1091058. . . . . . . . . 1, 6
Jenkins v. City of Cleveland,
2019 Ohio 458, 2019 WL 520037 . . . . . . . . . . 1, 15
Jenkins v. City of Cleveland,
156 Ohio St. 1464 (2019) . . . . . . . . . . . . . . . . . . . 1
Krimstock v. Kelly,
306 F.3d 40 (2nd Cir. 2002) . . . . . . . . . . . . . . . . 14
Little v. Gaston,
232 So. 231 (Ala Civ. App. 2017) . . . . . . . . . . . . 25
Long v. Ohio,
2012-Ohio-366 (Dec. 5, 2012) . . . . . . . . . . . . . . . 26
Mora v. U.S.,
955 F.2d 156 (2nd Cir. 1992) . . . . . . . . . . . . . . . 18

viii
Morrison v. Olson,
487 U.S. 654 (1988). . . . . . . . . . . . . . . . . . . . . . . . 2
One 1958 Plymouth Sedan v. Pennsylvania,
380 U.S. 693 (1965). . . . . . . . . . . . . . . . . . . . . . . . 8
Penn General Casualty Co. v. Pennsylvania,
294 U.S. 189 (1935). . . . . . . . . . . . . . . . . 17, 21, 28
Princess Lida of Thurn & Taxis v. Thompson,
305 U.S. 456 (1939). . . . . . . . . . . . . . . . . . . . . . . 21
Rufo v. United States,
20 F.3d 63 (2nd Cir. 1994) . . . . . . . . . . . . . . . . . 18
State v. Haynes,
25 Ohio St. 2d 264 (1971) . . . . . . . . . . . . . . . . . . . 8
State v. Jacobs,
137 Ohio St. 363 (1940) . . . . . . . . . . . . . . . passim
Taylor v. Carry L,
61 U.S. 583 (1957). . . . . . . . . . . . . . . . . . . . . . . . 18
United States v. $79,123.49 in U.S. Currency,
830 F.2d 9 (1971) . . . . . . . . . . . . . . . . . . . . . . . . 27
United States v. $174,206.00 in U.S. Currency,
320 F.3d 658 (6 th Cir. 2003) . . . . . . . . . . . . . . . . 22
United States v. $506,231.00 in U.S. Currency,
125 F. 3d 442 (7 th Cir. 1997) . . . . . . . . . . . . . . . . 21
United States v. Jenkins,
285 F. Supp. 2d 999 (N.D. Ohio 2003) . . . . . . . . 16
Whren v. United States,
517 U.S. 806 (1996). . . . . . . . . . . . . . . . . . . . . . . . 3

ix
OTHER RELEVANT RULES
AND AUTHORITIES
Asset Forfeiture Policy Manual (2019) . . . . . . . . . . 26
Revised Code of Ohio, §737.11 . . . . . . . . . . . . . . . . . 13
Revised Code of Ohio, §2881.14 . . . . . . . . . . . . . . . . 23
Revised Code of Ohio, §2933.24 . . . . . . . . . . . . . . . . 26
Revised Code of Ohio, §2933.26 . . . . . . . . . . . . passim
Revised Code of Ohio, §2981.03(A)(4) . . . . . . . passim
Revised Code of Ohio, §2981.05 . . . . . . . . . 7, 9, 20, 24
Revised Code of Ohio, §2981.14 . . . . . . . . . . . . . 16, 25
Title 28 U.S.C., §1257(3) . . . . . . . . . . . . . . . . . . . . . . 1
U.S. Constitution, Amendment IV . . . . . . . . . . . . 3, 4
U.S. Constitution, Amendment V . . . . . . . . . . . . . 3, 4
U.S. Constitution, Amendment VI . . . . . . . . . . . . 3, 4
U.S. Constitution, Amendment XIV . . . . . . . . . . . 3, 5

1
To the Honorable, the Chief Justice and
Associate Justices of the
Supreme Court of the United States:
The Petitioner, Andre Jenkins, respectfully prays
that a Writ of Certiorari issue to review the judgment
of the Ohio Court of Appeal for the Eighth Judicial
District, which Judgment became final when The Ohio
Supreme Court, on July 23, 2019, denied further
appellate review. See Jenkins v. City of Cleveland,
156 Ohio St. 1464 (2019).
OPINIONS BELOW
The Opinion here being centralized from the Ohio
Court of Appeals and labelled Jenkins v. City of
Cleveland, 2019 Ohio 458, is also reported in
2019WL520037. (See Appendix “B,” at App. 2.) A
prior Opinion, Jenkins v. City of Cleveland, was also
unofficially reported in that manner, i.e., 2017 Ohio
1054, and at 2017WL1091058.
STATEMENT OF THE GROUNDS ON WHICH
THE JURISDICTION
OF THIS COURT IS INVOKED
The judgment by the Court of Appeals was finalized
on July 23, 2019, when the Ohio Supreme Court
denied further appellate review. (See Appendix “A,”
at App. 1) So postured, the jurisdiction of this Court is
invoked under Title 28 U.S.C., §1257(3).
The issues in this case, which are most critical of
the police, particularly the arresting officer in this case,
and of the undisguised penchant of our local Courts to
coddle him and others of his ilk makes for

2
Constitutional issues here of great general and public
interest. This follows because of the extreme reluctance
of our Courts in Ohio to credit the awesome
significance of an indisputable reality, and how it is
rotely exploited by those police with a mind to do so.
Justice Scalia, which is hard to improve on. What he
recognized, and so wrote is hard to improve on. What
he recognized, and so wrote in Morrison v. Olson, 487
U.S. 654 (1988) “law enforcement is not automatic. It
isn’t blind … we know that no local police force can
strictly enforce the traffic laws, or it would arrest half
the driving population on any given morning...” Id., at
727-728. Why this truly sagacious, indeed insuperably
valid, thought does not receive the acclaim it deserves
is not a mystery to this counsel. This follows because in
our judgment most Courts arguably would prefer to
continue gospelizing the testimony of police officers.
This is especially so when it conflicts with an alleged
wrongdoer’s testimony - - and especially if he has a
record or it is a drug case.
The point here being that what is most clear in
these situations is that inasmuch as the police officer
surely will pick a person he thinks he can more easily
exploit. This he will do rather than engage those
merely believed to be simple traffic offenders. It is in
these situations that the officer’s actions have really
become personal. Actually, the person so stopped has
truly been victimized. For his (or her) only crime was
that of being on the officer’s list of profiled or
unpopular people, or on a list of people who are
obnoxious (or only appear to be so) to the officer. In
these circumstances, the motorist is literally at the
mercy of the officer’s ability to conjure up a violation.

3
Thus, the person stopped can be thrown into a searing
contest he is almost always destined to lose.
If the above thesis is logical, then surely this Court
should openly declare that where (as here) indisputably
formidable and compellingly overwhelming evidence of
a pretext is shown. Surely Whren v. United States,
517 U.S. 806 (1996), was not intended to imperviously
foreclose voiding what could otherwise be regarded as
an invalid search. Id., at 819. For sure what was said
in Whren, on this narrow point, was well calculated to
mean something, or it would not have even been said if
Whren was meant to close the door - - as some Courts
feel it did on the profile stop issue. The reference is to
the statement in that case that “there was nothing to
really demonstrate that the actions of the officers were
contrary to a normal traffic stop.” Id., p. 808. The same
quandary, for some of us, arises from the Court’s
reference to “the run-of-the-mine case[s].” Id., p. 818.
What does that mean? Our belief is it means there
could be a case where this Court will credit the belief
rejected in Whren (as being virtually impossible) that
police do sometimes lie about observed traffic offenses.
And, that they do for ulterior reason.
CONSTITUTIONAL AND
STATUTORY PROVISIONS
The principle provisions of the United States
Constitution involved in this case are the search and
seizure clause of the Fourth Amendment and the selfincriminating clause of the Fifth Amendment.
Likewise, relevant here is the due process clauses of
the Sixth and Fourteenth Amendments. The pertinent
text of these reads as follows:

4
AMENDMENT IV:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be
violated, and no warrants shall issue, but upon
probable cause, supported by oath or
affirmation, and particularly describing the
place to be searched, and the persons or things
to be seized.
AMENDMENT V:
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a
presentment or indictment of a grand jury,
except in cases arising in the land or naval
forces, or in the militia, when in actual service in
time of war or public danger; nor shall any
person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty,
or property, without due process of law; nor shall
private property be taken for public use, without
just compensation.
AMENDMENT VI:
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by
an impartial jury of the state and district
wherein the crime shall have been committed,
which district shall have been previously
ascertained by law, and to be informed of the
nature and cause of the accusation; to be

5
confronted with the witnesses against him; to
have compulsory process for obtaining witnesses
in his favor, and to have the assistance of
counsel for his defense.
AMENDMENT XIV:
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the state
wherein they reside. No state shall make or
enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any state deprive any person of
life, liberty, or property, without due process of
law; nor deny to any person within its
jurisdiction the equal protection of the laws.
STATEMENT OF THE CASE
The facts that engulf Andre Jenkins in this
appellate effort are simply put. For that reason, they
should be easily reckoned with and resolved, and would
be but for a mindset on display here. This shows, as we
see it, the extreme negative penchant of our Courts in
these situations. It allows the State’s version of the
asserted facts to dominate what is regarded by them as
simply believable. This is particularly so when there’s
the State’s version of events and any other version
conflicts with it. These conflicts are almost always
resolved in favor of the State - - even when its
implausibility (or irrationality) is manifest - - the case,
here. The fact that it is done without the benefit of
sworn testimony should be a problem for the Court and
resolved in our favor.

6
In this case, there was a previous appeal, dubbed
here Jenkins v. City of Cleveland, 2017WL1091058
(8th Dist. Case No. 104768), decided March 23, 2017.
There, the Court ruled: “we find that the trial Court
erred by dismissing Jenkins’ Petition for the Return of
Property, without a Hearing.” Id., ¶25. This ruling was
backgrounded by facts that showed Jenkins supposedly
illegally parked his vehicle in front of a carry-out
restaurant before the police accosted him for that
“violation.” In doing so, Jenkins and his passenger were
hassled (as is always the case) by the police. Later,
they learned the person to whom the car was registered
was a major drug dealer, who had recently been
incarcerated. The facts will also show that in the end,
while engaged in visually looking at Jenkins in
connection with the issuance of their ticket, it appeared
to them (so they said) that Jenkins tried to hide
something by reaching into the backseat of the vehicle.
The Record shows this was not any foolish effort to
retrieve something to menace their safety, which would
have rendered their response appropriate. Jenkins felt
offended here.
All that aside, he lodged this action, as he had a
right to do, under favor of O.R.C., §2981.03(A)(4).
When he did that, there was no federal Court action
afoot. And, there was no Court finding to the contrary
even possible. Simply put then, let’s be clear. There is
absolutely nothing illegal about hiding something from
the police to keep others from seeing it. This would be
a very legal act. Of course, the absence of a Hearing,
which was the Court’s choice, leaves us with contested
versions even of that event itself. Still, from that we
know that what was in the box being put out of sight

7
was not a gun, or even drugs. It was money only. Still,
in all, it was seized without probable cause by the
police. Indeed, by these officers on their own authority.
No other basis for its seizure can even possibly be
shown.
As to this money, we do know that, to date, the
police are yet to claim this money was being illegally
possessed by Andre Jenkins. Also, we know that no
longer is it a fact that, as the Cleveland police continue
to believe, the Jenkinses of the world, especially those
who are ex-convicts - - as was Andre Jenkins, have no
rights the Cleveland Police are bound to respect. One
of those rights is in the Fourth Amendment which is
clearly written and protects him from being illegally
subjected to the wrongful seizure of his property. This
occurs, we have maintained, and shown, even when the
seized money cannot possibly be connected to any
illegal activity, and for sure the police lack probable
cause. Still, some believe that O.R.C., §2981.05, does
not apply to them. This is so because some Cleveland
police officers believe they are above the law. They
believe all they need to do in these situations is to
simply turn the money over to the federal Government.
And then most of it can end up in the City’s coffers.
Well, that is what happened here in the end.
Indeed, as Jenkins I shows, having been seized in
the name of the State, jurisdiction over this money was
vested in the Court of this State, arguably the basis of
our belief this was so is O.R.C., §2933.26 and State v.
Jacobs, 137 Ohio St. 2d 363 (1940). Also see O.R.C.,
§2981.05. Thus, given the will of our Legislature, as
expressed in §2981.03(A)(4), Jenkins I got it right in

8
that segment of the Opinion aptly dubbed therein
Factual and Procedural History (¶¶2-6). This,
because it fairly shows how difficult it is to even get to
the lawfulness of the seizure issues.
Indeed, we are still maintaining that because, as
our Supreme Court stated when it decided State v.
Haynes, 25 Ohio St. 2d 264 (1971), federal standards
apply to all constitutional issues, even in Ohio. Id., p.
267. This is significant, because it may happen that
one day the City will realize that they can be compelled
to prove the monies here were lawfully seized. See One
1958 Plymouth Sedan v. Pennsylvania, 380 U.S.
693 (1965). This follows because even Cleveland Police
officers cannot willy nilly turn over people’s money to
the federal Government for profit. This simply because
they want to. Indeed, given the money was seized in
the name of the State, only a Court can release this
money to anyone other than the person from whom it
was taken - - in our judgment.
Of course, the real truth is that rather than talk
about why they no longer have possession of this
money and try to explain to this Court what made
them think they had been empowered to give this
money to anyone, including the federal Government, in
spite of O.R.C., §2933.26, they will again simply ignore
the issue. Can that be right? Well, the fact that this is
so seems clearly to be because our Courts simply allow
them to do this. Why?

9
STATEMENT OF THE FACTS
Regardless of the thesis that will be advanced by
the City, the one fact it will not be able to avoid could
not be any clearer. It stems from the fact that the
Fourth Amendment applies to all aspects of the seizure
made of Andre Jenkins and of his money. This is really
Hornbook Law. Yet, it happened the money involved
here was seized. The lawfulness of this warrantless
seizure is yet to be determined. And, that seems to be
alright with our Courts. Why is this so?
Given that aside from the fact no contraband of any
sort was found, and only a very minor traffic ticket was
issued, these officers nonetheless seized these monies.
Understand this was done despite the fact they lacked
probable cause to do so. Given we know the only
possible basis for its seizure, under the law, if they
were enforcing the Ohio forfeiture law, is two-fold.
O.R.C., §2981.05, provides the sole basis for the
seizure of property not incident to an arrest. Also, it is
clear the City contended it no longer had possession of
these monies because they gave it to the Government.
In making that argument, it seems clear enough the
onus should have been on them to prove they did so
lawfully. Saying, “this is what was done”, was hardly
enough. This because the money was being held by
them as a mere custodian for a Court and there were
still other issues involved that required a resolution
from the Court in whose possession the money was
being held, subject “to orders of the Court.” O.R.C.,
§2933.26. When read in the light of State v. Jacobs
this is made clear.

10
Here, too, it should not be ignored that this
argument was made before by the City of Cleveland - i.e., that once before they had while acting on their own
authority arrogated unto themselves, gestapo style, the
right and power to dispose of these monies. Here,
reference is to Black v. City of Cleveland, 58 Ohio
App. 29 (8th Dist. 1978). There, the police gave away
a large quantity of whiskey seized in the raid of an
afterhours cheat spot. And, our Court of Appeals
rightly treated the whiskey as being a fungible item,
not unlike this money here, and ordered the value of
property returned. So in this case, let’s be clear. There
is nothing in the law that commissioned Cleveland
police officers to conspire with any other law
enforcement agency, or any of its employees, to profit
if they would seek a forfeiture in the Government’s
name - - which arguably occurred here.
Next, we do contend the law is clear: all money
seized in the name of the State arguably becomes
subject to the orders of a State Court insofar as to how
it should be disposed of. This means the Cleveland
police would have been powerless to give this money to
anyone - - including the federal Government. This is so
all the moreso since they were also under the policies
initiated by the U.S. Attorney General. Also, see
O.R.C., §2933.26 and State v. Jacobs, passim.
Postured by the above analysis, which is really
incontestable, clearly the onus is, and was, on the State
to prove the police acted properly when they turned the
money over to a group of agents of the federal
Government regardless of the reason. This is so
because whoever did that was wrong in turning over

11
the money, and the person who took it was way out of
line. Surely then, they will show the Court, they not
only had power to do so (while acting on their own
authority), but they did so in accordance with the laws
of the State and the Federal Government and, they will
show us why that is so. This will be done, we suppose,
by reference to any logical resolution predicated on
facts rather than warped rhetoric. Indeed, of the type
we will get from the City.
In any event, sooner rather than later, it only
makes sense that some Court will simply have to
address the fundamental issue here. It recognizes the
significance of the absence given the above quote from
State v. Jacobs, passim. Not only is it a fact the
seizure simply cannot be defended in law, logic, or
common sense, but the reality is that no Court
authorized this money (that was seized in the name of
the State) to be removed from the custody of the State.
See O.R.C., §2933.26 and State v. Jacobs, passim.
The fact it was actually removed on the basis of a
warrant, from its mere custodian, hardly constitutes
the type of action that could vest in rem jurisdiction on
the federal system over this money. Some of us know
this.
ARGUMENTS RELIED ON
FOR ALLOWANCE OF WRIT
What really magnifies the issue being submitted to
the Court actually distill from an insuperable thesis.
Simply put, we have here a very discernible fact that
shows clearly far too many officers have ulterior motive
of the type in evidence, here, which clearly was based
on a profiled belief if a targeted motorist is searched

12
along with his vehicle it will yield proof of wrongdoing
are (in cases of this type a cache of money that they can
simply seize for forfeiture) - - the case, here.
The arguments made below show that once they
traced the vehicle, it showed it was registered to a
somewhat recently convicted Major Drug Dealer. And
they learned, once they encountered our Petitioner in
the legally parked vehicle (on a public street), it was
Andre Jenkins, who had recently come home after
being released from federal prison following a sentence
for having been caught with 73 kilograms of cocaine in
his possession and a large sum of money.
Understandably he was going to be hassled. The issues
as to the lawfulness of these seizures were as the
arguments below show. This because of the way the
forfeiture systems at work here were used to abort this
Petitioner’s all out efforts to make use of the State’s
forfeiture schemes - - all to no avail.
Thus, here we are, our quest is for justice. So far it
has been denied us. It is thus up to the Court whether
they can get away with it.

13
ARGUMENT NO. I
DUE PROCESS IS INVARIABLY DENIED
WHEN, WITHOUT A FACTUAL BASIS
(AND SOLELY ON THE BASIS OF NAKED,
UNCLAD, UNPROVEN, UNPROVABLE
AND UNFOUNDED CONCLUSIONS), THE
COURT CONCLUDES IT LACKED
JURISDICTION TO DETERMINE
WHETHER MONEY SEIZED INCIDENT TO
AN ARREST BY LOCAL POLICE WAS
FORFEITABLE - - INDEED, WITHOUT
REGARD TO WHETHER IT WAS
LAWFULLY SEIZED.
Simply put, no federal officers were involved in any
way in the ticketed violation, or the seizure of this
money from Jenkins. The question then is how could
the State Courts, consistent with due process, allow the
Cleveland police to literally subvert the law, i.e., Ohio’s
forfeiture laws, with impunity, as was done, here?
And, this by simply calling some federal agent and
turning Jenkins’ money over to him. This the officer did
despite the fact the arrest was based solely on a traffic
offense. Surely, it has to be that the State Courts had
the power and an obligation to prevent the police from
transferring property (seized “as evidence”) in defiance
of State law, because it was profitable to the City for
them to do so.
Granted, the arguments made herein and placed
before the Court will emphasize the fact that the police
powers at work were vested in the officers involved by
the State. O.R.C., §737.11. With this being so, the
various prevailing positions taken in the Court below

14
to the contrary, notwithstanding, the contentions
argued in this Brief are really unassailable. Specifically
put, the original seizure of these monies under Ohio
law, indisputably, vested our Common Pleas Court
with jurisdiction over this property. This unassailable
reality is augmented by the receipt given Jenkins for
his money.
Clearly then, there was no way the State Courts
should have subscribed to the warped belief, and the
hollow proposition, that “enforcement of the drug
forfeiture laws presents a plausible claim of urgency
that is strong enough to dispense with normal due
process guarantees” in cases such as this one.
Krimstock v. Kelly, 306 F.3d 40, at 66 (2nd Cir.
2002). The point here being emphasized is magnified
further for those of us who recognize the awesome
significance of the holding in Hagan v. Lucas, 35 U.S.
400 (10 Pet. 400) (1836). There, the Court held the
pendency of a State Court action (here the pendency of
this case) involving the identical property was
sufficient to bar any federal Court action with reference
to the same property. This is the holding that is on
appeal.
Most relevant then to any resolution of this appeal
is the fact that (while it is doubtlessly true the trial
Judge gave judicious and studied attention to certain
aspects of our contentions) a grim reality remains.
There were a number of disputed issues before the trial
Court that required specific, factually based, findings
by the Court. Some of these issues were subsumed and
ignored in the disposition Entry, i.e., the Judgment
Entry being centralized. Of course, only one was

15
addressed - - the possession issue. See Jenkins v. City
of Cleveland, 2019WL520037, of the Opinion. And, it
was resolved on the basis of the naked and untenable
assertion of a lack of jurisdiction.
For sure, as well, a primary issue turns on whether
the original seizure of this money was illegal. Also,
another asks whether (as we believe) the trial Court
had in rem jurisdiction over this money vested from the
point of its seizure, or from when our Motion was first
filed. And, if it did not, it vested when it was first
seized in the name of the State. Thus, an explicit
finding was surely required to be made that bears
directly on these precise issues. Simply put, the trial
Court needed a factual basis for any conclusions
concerning the whereabouts of this money, and its legal
status, before ruling he lacked jurisdiction. Also needed
is a finding that the seizure warrant issued to a federal
agency can be equated to a Court in the jurisdictional
dispute, and to a seizure made in the name of the
State.
Of meaningful significance is the riddle as to how
far afield did the State Courts below actually stray in
refusing to give Andre Jenkins his day in Court? This
the Court did by declaring that their Court’s
jurisdiction was trumped by counsel-opposite’s naked
and unclad pontification that it lacked jurisdiction.
Critically important here is the fact that the State
offered no evidence that showed when, if it ever
happened, some federal Court acquired jurisdiction
over this money.

16
For sure, there are those of us, which include the
Court, that fully realize from the critical facts here that
this seizure was consummated wholly and solely by
Cleveland police officers. Clearly they believed, in
counsel’s judgment, that once they realized he had
recently been released from prison in the wake of a
conviction that showed he had once-upon-a-time been
a major drug dealer in the Cleveland area,1 and was
actually driving a vehicle owned by one recently
imprisoned for serious drug violations that he was fully
clothed with probable cause; hence, when the search
made of the vehicle revealed this money it had to be
drug money. And, it was there for the taking, which is
what they did. Also, we know this money, to be
forfeited to the Government, had to be adopted which
should have occurred before the State acquired
possession. Well, we know that did not happen. Still we
know the chief of the Cleveland police never applied for
adoption (O.R.C., §2981.14) and we know none of the
federal agencies applied. Then it could only be the
Attorney General must have applied, but there is no
proof that happened either. For if that had happened,
rather than tell us the money had already been
forfeited to the Government, its proof should have
addressed that issue as well. This follows because the
issue before the State Court challenged its jurisdiction.
And, given the fact that the seizure by State officers in
the name of the State vested jurisdiction in the State
Court. How can it be the City prevailed here by proving
it had the money?

1

U.S. v. Jenkins, 285 F. Supp. 2d 999 (N.D. Ohio 2003), which
case involved his possession of 73 kg of cocaine.

17
ARGUMENT NO. II
ABSENT A SPECIFIC FACTUAL FINDING
THAT THE FEDERAL COURT HAD
INDE ED ACTUALLY, LAWFULLY,
ACQUIRED JURISDICTION, AND GIVEN
THAT “THE COURT THAT EXERCISES
FIRST JURISDICTION” OVER SEIZED
PROPERTY DOES SO EXCLUSIVELY, IT
FOLLOWS THE COURT HERE ERRED
WHEN IT DECLARED IT LACKED
JURISDICTION OVER PROPERTY THAT
WAS SEIZED IN THE NAME OF THE
STATE.
Early on in this country the law was declared to be
that “the first Court assuming jurisdiction” over res can
maintain that jurisdiction to the exclusion of any other.
See Penn General Casualty Company v.
Pennsylvania, 294 U.S. 189, at 195 (1935). Also see
Hagan v. Lucas, 35 U.S. 400 (10 Pet. 400) (1836),
where it was held that even with slaves, once
jurisdiction over them had vested in a State Court, it
remained exclusively, therein. Id., p. 403. Admittedly,
slavery in this country fortunately ended, but the law
this case spawned is still compellingly valid.
Granted the State has argued the naked fact that
because a Government agency had actually seized these
monies, and actually had possession, and eventually,
which seizure it created, as having occurred, this
showing was dispositive. In our judgment this
argument being hollow, indeed, goes too far. Simply
put, (1) it ignores the fact that possession obtained
through an invalid seizure neither strips the first Court

18
(our Court) of its jurisdiction nor vests it in the second.
See Taylor v. Carry L, 61 U.S. 583, at 599-600
(1957). And (2) it ignores the fact that our local Court
acquired “in rem” jurisdiction before any other Court
acquired superior jurisdiction - - if it ever acquired any.
Here it is worth emphasizing this Court is not
without the power to sanction the City for unleashing
police officers on the public who do not know right from
wrong. City of Canton v. Harris, 489 U.S. 378
(1989). For sure, Black v. City of Cleveland, 58 Ohio
App. 2d 29 (8th Dist. 1978), makes clear our Courts
can rectify wrongs of this ilk. Cf., Rufo v. U.S., 20 F.3d
63 (2nd Cir. 1994) and Mora v. U.S., 955 F.2d 156
(2nd Cir. 1992). Here we seek, in addition to the
return of this money, attorney fees as well. On this
point, the testimony will eventually show, the officers’
malevolent motives were clear enough. Indeed, one
does not have to even be very bright to understand
what happened here and why.
Of course, it could not be any clearer the Courts
below simply refused to address the issue that the case
was properly lodged with our Common Pleas Court.
Likewise, it is clear the State offered no proof the
money was ever lawfully transferred to the
Government. And, the Appellant’s action for the
return of this money was lodged before any
Court action was taken in federal Court. Again,
the facts here are indisputable that, before the
Government filed its forfeiture action, the Appellant
filed this action under favor of O.R.C., §2981.03(A)(4).
We deem that as being dispositive. With that being so,
since money is fungible, who had custody of this money

19
when this was filed is relevant. This because under the
law, which is indisputable the first Court to exercise in
rem or quasi in rem jurisdiction, cannot be overcome,
unless the property involved is turned over in a
legitimate way to the other jurisdiction, and that
simply did not happen here. It really is that simple.
Yet, our Court looked the other way.

20
ARGUMENT NO. III
GIVEN THE FIRST COURT (STATE OR
FEDERAL) TO ASSERT IN REM
JURISDICTION, AND GIVEN THE
SEIZURE WHEN IT WAS MADE BY THE
STATE LAW ENFORCEMENT OFFICER
(COULD ONLY HAVE BEEN MADE,
LAWFULLY THAT IT) FOR PURPOSE OF
AN IN REM FORFEITURE, AND GIVEN
O.R.C., §2981.03(A)(4) CAN ONLY BE SAID
TO HAVE AUTHORIZED CIVIL
FORFEITURE (- - I.E., THE IN REM
FORFEITURES ACTIONS TALKED ABOUT
IN O.R.C., §2981.05), IT FOLLOWS THAT
THE GOVERNMENT’S COMPLAINT,
FILED AFTER THESE MONIES WERE
SEIZED IN THE NAME OF THE STATE
(FOR FORFEITURE) AND AFTER THE
APPELLANT’S ACTION, CLEARLY COULD
NOT TRUMP THE EARLIER ACTION AS
THE COURTS BELOW RULED IT COULD,
THIS DESPITE THE FACT OF THE LAW IN
THESE CASES MADE AND PROVIDED.
Given the efficacy of the above unassailable tenet
(and with that being so), the Court’s dispositive
analysis, and related ruling encompassed in ¶36 of the
its Opinion, simply cannot be defended in law, logic or
commonsense. So, let’s be very clear, the central issues
distill from the following categorical tenet. As we see it,
it seems clearly to mandate the Courts below were
required to follow the following clear-cut thesis, fully
applicable here, that:

21
[I]f . . . two suits are in rem or quasi in rem,
requiring that the court or its officer have
possession or control of the property which is the
subject of the suit in order to proceed with the
cause and to grant the relief sought; the
jurisdiction of one court must of necessity yield
to that of the other. To avoid unseemly and
disastrous conflicts in the administration of cur
dual judicial system. and to protect the judicial
processes of the court first assuming
jurisdiction. , the principle . . . is established
that the court first assuming jurisdiction over
the property may maintain and exercise that
jurisdiction to the exclusion of the other.
Pennsylvania General Casualty Co. v.
Pennsylvania, 294 U.S. 189 (1935). Also see
Donovan v. Dallas, 377 U.S. 408, at 412 (1964);
Princess Lida of Thurn & Taxis v. Thompson, 305
U.S. 456 (1939); and U.S. v. $506,231.00 in U.S.
Currency, 125 F. 3d 442 (7th Cir. 1997).
Also, this Court should recognize that it can hardly
ignore the efficacy of our belief that it should comment,
and reject our contention, that the idea the Supreme
Court has actually recognized that once jurisdiction
actually vests, as it did here, in the State Courts, only
that Court (or some other State Court) can lawfully
relinquish its hold on that money.
With that being so, a critical fact is that not only the
trial Court, but the Court of Appeals, in, both, of its
Opinions, seem clearly to refuse to reckon with the
central question here. It asks, which was the first
Court to exercise in rem jurisdiction? Simply put, the

22
issue does not turn on who had possession when
Jenkins filed this lawsuit. This follows because it has
never been a fact in the history of the world that might
make right. Indeed, the fact that the Courts below
failed to credit the fact that, under the law of the State,
inasmuch, as this money was being held subject to the
orders of a State Court (indeed by the police we
suppose), one thing is clear. There is no way it can be
said that action literally trumped the will of the
Legislature - - that is, as expressed through O.R.C.,
§2933.26, which informs us that items seized in the
name of the State are being held subject to its Orders.
For me, given the fact that the dispositive law on
this issue is encompassed in the following thesis that
shows the resolution of this dispositive issue is clear
enough. The seizing of the money by the Government,
in the wake of the warrant it relies on, cannot be
viewed as the type of judicial act that is capable of
vesting in rem jurisdiction in the federal Court. On the
other hand, given there was never any in personam
jurisdiction over this money, as was the situation in
U.S. v. $174,206.00 in U.S. Currency, 320 F.3d 658,
at 661 (6th Cir. 2003), the Government’s reliance on
that case is misplaced. This follows because in that
case, the seizure there made was on the basis that the
money was evidence related to the criminal charges
Thomas Richard and his brother were charged with
and convicted of. Here, the basis for the seizure had to
be solely for forfeiture. This follows because other basis
for the seizure ever existed. And, the sole charge made
against Jenkins was a traffic offense, related to
illegally affecting the flow of traffic - - nothing else. He
was simply given a ticket. Yet, his money was taken.

23
Because this was so and nowhere has it ever been
contended that the State ever asked that it be adopted,
as could have occurred, (O.R.C. §2881.14) it has to be
that there was a direct adoption here made at the
Government’s request. But we have no proof that is
what occurred.
Thus, so far as we know, there has never been even
a showing these monies were lawfully seized, or a
finding as to how the Government even got possession
of this money, yet the State Court made the finding (in
effect) the State Court lacked jurisdiction.
For those of us capable of the required level of
sophistication in assaying legal issues above the
Hornbook level, let’s be very clear. We recognize, as
should the Court, that there is no way the seizure by
the police of this money from Andre Jenkins can ever
be defended. Likewise, we are contending the
concurrent jurisdiction doctrine resolves itself here in
his favor if we merely credit his filing in the wake of
O.R.C., §2981.03(A)(4), a sort of forfeiture action was
indeed then pending for sure. And this fact would
survive any claim of jurisdiction even if the argument
is made there was no forfeiture action lodged by the
State pending before the Government’s complaint was
filed. Our thesis then would be Jenkins’ action was
indeed a forfeiture action since it was filed under our
forfeiture statutes.
What seems clearly to be the fact is the trial Court,
as well as, the Court of Appeals, both, have missed the
point that money is fungible and the money taken from
Jenkins, by the Cleveland Police, at all times
regardless of who had actual custody, was being held

24
subject to the Orders of the Common Pleas Court. See
O.R.C., §2933.26 and State v. Jacobs, passim, which
makes that clear enough. With that being so, it could
not be any clearer that absent proof that while the
Government may have acquired possession of the
actual money, the fact of that possession is irrelevant
here. This because in rem jurisdiction did not vest in
the federal Court in the wake of that acquisition. The
seizure itself was in contemplation of the Government
filing a forfeiture complaint, which it did on March 1,
2016. Undeniably, the date shows the Government’s
action was filed too late, here. And, it clashed with the
“concurrent jurisdiction” concept.
Again, the critical facts then show the officers’
seizures could only have been in contemplation of a
belief it was subject to civil forfeiture (O.R.C.,
§2981.05), since there was no basis to even believe it
could be connected to any crime. While we also believe
that reality must be reckoned with the complaint in
this case was filed on November 10, 2015. Clearly,
this date is earlier than the date the Government filed
its complaint, which was March 1, 2016 - - a critical
date here.
On the other hand, there is an easy way that issues
of this ilk could be prevented. This would occur if the
Court recognized on this Record, the obvious - - that
the lodging of a civil action under favor of O.R.C.,
§2981.03(A)(4), is an in rem Court action.

25
ARGUMENT IV
GIVEN THE FUNDS IN A FORFEITURE
CASE WERE INDISPUTABLY SEIZED BY
LOCAL POLICE, AND GIVEN THE ONLY
POWER THE OFFICERS HAD TO DO SO
WAS THE STATE’S FORFEITURE
STATUTES (- - HERE, O.R.C., §2981.14)
WHICH VESTS JURISDICTION IN THE
STATE’S COURT, CAN THE LOCAL
POLICE WILLY NILLY, AND ON THEIR
OWN AUTHORITY, TRANSFER AND VEST
JURISDICTION IN THE FEDERAL COURT
DESPITE
THE
“CONCURRENT
JURISDICTION DOCTRINE.”
Here, the facts are clear: there was no involvement
by any federal law enforcement officers in the seizure
of these monies. It was achieved in the wake of a very
minor traffic offense involving a parked vehicle. The
money was seized incident to a search made of the
vehicle. Indeed, in spite of purging the money, it was
turned over to the Government and a federal seizure
action was filed. We contend given “the concurrent
sentence doctrine” only the State Courts had
jurisdiction over that money. See Little v. Gaston,
232 So. 231 (Ala Civ. App. 2017). There it was said:
A federal forfeiture proceeding may not be
initiated against property seized by State or
local law enforcement while the property
remains subject to the in rem or quasi in rem
jurisdiction of a State Court, as the Court first
assuming in rem jurisdiction over the property
retains jurisdiction to the exclusion of all others.

26
Here, the law then seems clearly to be, as stated in the
Government’s Asset Forfeiture Policy Manual
(2019), that:
A State Court may be deemed to acquire
jurisdiction over property seized by a State or
local agency in a variety of ways, including
where a State or local agency seizes the property
pursuant to a State search warrant or seizure
warrant . . . where a party files an action in
State court seeking the return of the property, or
even where a state or local law enforcement
officer simply seizes the property in the absence
of state process. If a state court has in rem
jurisdiction over property, the state court must
relinquish jurisdiction before any initiation of
federal in rem forfeiture.
Id., p. 69. If there is another way, and it will explain
what happened, then surely it will be used by counsel
to with this case of course the opposite will really say
all we need to prevail to win this case - - if that is
possible and we doubt that it is.
Given Ohio statutes2 and case law3 place items
seized by local law enforcement officers under judicial
control, it follows any seizure made in the name of the
State constitutes an assertion of jurisdiction by the

2

3

O.R.C., §§2933.24-2933.26 & 2981.03, et. al.

State v. Jacobs, 137 Ohio St. 363 (1940); Demetrius Harris
v. City of Mayfield Heights, No. 95601, 2011WL1584579 (8th
Dist. OH April 21, 2011); and Long v. Ohio, 2012-Ohio-366
(Dec. 5, 2012).

27
State Courts over the seized items. In a nutshell, the
precise contention here being made is easily stated:
this seizure fell within the ambit of Ohio’s legislative
and case law schemes. These schemes mandate that all
property seized in the name of the State must
invariably be held subject to further orders of the
Court. Clearly the jurisdiction that vested in the wake
of this seizure was in rem jurisdiction. This thesis is
fully consistent with the way concurrent jurisdiction
issues should be resolved by all federal agencies. It is
all the more significant here. Since the trial Court
never concerned itself with the position we had taken
that these monies were simply taken by these police
officers and turned over to the Government.
With this being so, it follows the asserted
jurisdictions over these monies by the federal Court
simply cannot survive meaningful scrutiny. Obviously,
the local Court saw it otherwise. So postured, what this
case makes so compellingly clear is these officers were
literally powerless to seize any property on their own
authority. Simply put, they were literally without any
power to transfer this property with such mercenarious
intent to the Government. Moreover, surely these local
police officers could not so calculatingly avoid very
precise laws of this State by a simple act of contumacy.
Now, as we understand it, the State is basically
arguing that the Government’s actual possession of this
money is all that was required for it to have
jurisdiction. Of course, this argument ignores a grim
fact: “Possession obtained through an invalid seizure
neither strips the first court of jurisdiction nor vests in
the second . . ..” U.S. v. $79,123.49 in U.S. Currency,
830 F.2d 9 (1971).

28
CONCLUSION
What magnifies the compelling facts that centralize
our contention, here, which is what the Ohio Courts in
this case simply do not get it, is easily put. For if they
did, they would have understood that once these
Cleveland police officers seized these monies, in the
wake of the very minor traffic parking violation,
jurisdiction vested in the State’s Court - - here, the
Cleveland Municipal Court. With that being so, unless
and until that Court relinquished its Jurisdiction, no
other Court could possibly acquire Jurisdiction. Simply
put, the tenet that says this is really Hornbook Law.
Indeed, it is a long-standing principle we rely on,
here. It holds the jurisdiction that had already vested
(in the Cleveland Municipal Court) upon the seizure,
was literally impervious to be divested thereof by the
Federal Court. Our belief, and hopefully the Court’s is,
the State Courts had jurisdiction over this money from
the moment it was taken from our Petitioner in the
name of the State, and it was relinquished by the
State. Indeed - - no basis in law exist that shows there
is a reason why this Court should depart from its
holding Penn General Casualty Co. v.
Pennsylvania, 294 U.S. 189, 195 (1935), or ignore its
full thrust.
Having said that, nothing further need be said.

29
Respectfully submitted,
JAMES R. WILLIS
Counsel of Record
CLARISSA A. SMITH
Rockefeller Building
614 W. Superior Ave., Suite 1144
Cleveland, Ohio 44113
(216) 523-1100
(216) 861-4161 (Fax)
jrwillis-barrister@sbcglobal.net
Counsel for Petitioner

